<html>
<title> - [H.A.S.C. No. 116-62] HEARING ON NATIONAL DEFENSE AUTHORIZATION ACT FOR FISCAL YEAR 2021 AND OVERSIGHT OF PREVIOUSLY AUTHORIZED PROGRAMS BEFORE THE COMMITTEE ON ARMED SERVICES HOUSE OF REPRESENTATIVES ONE HUNDRED SIXTEENTH CONGRESS SECOND SESSION</title>
<body><pre>[House Hearing, 116 Congress]
[From the U.S. Government Publishing Office]


                                     
 
                         [H.A.S.C. No. 116-62]

                                HEARING

                                   ON

                   NATIONAL DEFENSE AUTHORIZATION ACT

                          FOR FISCAL YEAR 2021

                                  AND

              OVERSIGHT OF PREVIOUSLY AUTHORIZED PROGRAMS

                               BEFORE THE

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED SIXTEENTH CONGRESS

                             SECOND SESSION

                               __________

  SUBCOMMITTEE ON INTELLIGENCE AND EMERGING THREATS AND CAPABILITIES 
                                HEARING

                                   ON

                    REVIEWING DEPARTMENT OF DEFENSE

                     STRATEGY, POLICY, AND PROGRAMS

                     FOR COUNTERING WEAPONS OF MASS

                    DESTRUCTION FOR FISCAL YEAR 2021

                               __________

                              HEARING HELD
                           FEBRUARY 11, 2020

                                     

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]






                            ______

             U.S. GOVERNMENT PUBLISHING OFFICE 
40-509                 WASHINGTON : 2020 

                                     
  


   SUBCOMMITTEE ON INTELLIGENCE AND EMERGING THREATS AND CAPABILITIES

               JAMES R. LANGEVIN, Rhode Island, Chairman

RICK LARSEN, Washington              ELISE M. STEFANIK, New York
JIM COOPER, Tennessee                SAM GRAVES, Missouri
TULSI GABBARD, Hawaii                RALPH LEE ABRAHAM, Louisiana
ANTHONY G. BROWN, Maryland           K. MICHAEL CONAWAY, Texas
RO KHANNA, California                AUSTIN SCOTT, Georgia
WILLIAM R. KEATING, Massachusetts    SCOTT DesJARLAIS, Tennessee
ANDY KIM, New Jersey                 MIKE GALLAGHER, Wisconsin
CHRISSY HOULAHAN, Pennsylvania       MICHAEL WALTZ, Florida
JASON CROW, Colorado, Vice Chair     DON BACON, Nebraska
ELISSA SLOTKIN, Michigan             JIM BANKS, Indiana
LORI TRAHAN, Massachusetts
                Bess Dopkeen, Professional Staff Member
               Eric Snelgrove, Professional Staff Member
                         Caroline Kehrli, Clerk
                         
                            C O N T E N T S

                              ----------                              
                                                                   Page

              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

Langevin, Hon. James R., a Representative from Rhode Island, 
  Chairman, Subcommittee on Intelligence and Emerging Threats and 
  Capabilities...................................................     1
Stefanik, Hon. Elise M., a Representative from New York, Ranking 
  Member, Subcommittee on Intelligence and Emerging Threats and 
  Capabilities...................................................     3

                               WITNESSES

Oxford, Vayl, Director, Defense Threat Reduction Agency, Office 
  of the Under Secretary of Defense for Acquisition and 
  Sustainment....................................................     8
Shaffer, Hon. Alan R., Deputy Under Secretary of Defense for 
  Acquisition and Sustainment and Acting Assistant Secretary of 
  Defense for Nuclear, Chemical, and Biological Defense Programs, 
  Office of the Under Secretary of Defense for Acquisition and 
  Sustainment....................................................     5
Szymanski, VADM Timothy G., USN, Deputy Commander, U.S. Special 
  Operations Command.............................................     7
Whelan, Theresa M., Principal Deputy Assistant Secretary of 
  Defense for Homeland Defense and Global Security, Office of the 
  Under Secretary of Defense for Policy..........................     4

                                APPENDIX

Prepared Statements:

    Langevin, Hon. James R.......................................    27
    Oxford, Vayl.................................................    64
    Shaffer, Hon. Alan R.........................................    40
    Szymanski, VADM Timothy G....................................    53
    Whelan, Theresa M............................................    29

Documents Submitted for the Record:

    [There were no Documents submitted.]

Witness Responses to Questions Asked During the Hearing:

    Ms. Houlahan.................................................    89

Questions Submitted by Members Post Hearing:

    [There were no Questions submitted post hearing.]
               REVIEWING DEPARTMENT OF DEFENSE STRATEGY,

              POLICY, AND PROGRAMS FOR COUNTERING WEAPONS

                OF MASS DESTRUCTION FOR FISCAL YEAR 2021

                              ----------                              

                  House of Representatives,
                       Committee on Armed Services,
     Subcommittee on Intelligence and Emerging Threats and 
                                              Capabilities,
                        Washington, DC, Tuesday, February 11, 2020.
    The subcommittee met, pursuant to call, at 2:39 p.m., in 
room 2118, Rayburn House Office Building, Hon. James R. 
Langevin (chairman of the subcommittee) presiding.

 OPENING STATEMENT OF HON. JAMES R. LANGEVIN, A REPRESENTATIVE 
 FROM RHODE ISLAND, CHAIRMAN, SUBCOMMITTEE ON INTELLIGENCE AND 
               EMERGING THREATS AND CAPABILITIES

    Mr. Langevin. The hearing will come to order. I want to 
welcome everyone to today's hearing on reviewing the Department 
of Defense strategy, policy, and programs for countering 
weapons of mass destruction.''
    Before we get started, I want to introduce and thank our 
four witnesses before us for their contributions on this 
important issue: first, Ms. Theresa Whelan, Principal Deputy 
Assistant Secretary of Defense for Homeland Defense and Global 
Security in the Office of the Under Secretary of Defense for 
Policy; the Honorable Al Shaffer, Deputy Under Secretary of 
Defense for Acquisition and Sustainment and the current Acting 
Assistant Secretary of Defense for Nuclear, Chemical, and 
Biological Defense Programs; Vice Admiral Timothy Szymanski, 
the Deputy Commander of the U.S. Special Operations Command, 
now the coordinating authority for CWMD [Countering Weapons of 
Mass Destruction]; and last but not least, Mr. Vayl Oxford, 
Director of the Defense Threat Reduction Agency.
    Welcome to everyone.
    Over the past few years, both Russia and North Korea have 
employed chemical weapons and nerve agents. In Syria, pro-
regime and ISIS [Islamic State of Iraq and Syria] forces use 
chemical weapons on civilian populations to achieve their 
tactical and strategic objectives.
    Advances in biotechnology, synthetic biology, and gene 
editing are rapidly changing the playing field to allow 
countries and individuals acting with nefarious intent, or even 
just by chance, to produce biological agents in a scope and 
scale not yet encountered.
    And adversaries are working on the development of 
hypersonic weapons to deliver warheads faster, possibly faster 
than our ability to counter them.
    All of these advances are exacerbating the complexity of 
the world's WMD threats.
    Indeed, the current coronavirus outbreak and global panic 
underscores how important scientific research and preparedness 
across the interagency is for our national and economic 
security.
    Our four witnesses hold positions that comprise the bulk of 
the Department's assigned roles and responsibilities associated 
with aligning CWMD policy and strategy and programs, executing 
those programs, delivering current and future personal 
protective equipment and other capabilities to our warfighters, 
and eliminating our remaining U.S. stockpiles of lethal 
chemical agents.
    So I am told that our witnesses have been directed by the 
Office of Management and Budget not to speak today to the 
fiscal year 2021 President's budget request, despite this 
hearing taking place after the budget was released yesterday. 
For the record, I am deeply disappointed by this directive, 
which violates longstanding precedent regarding congressional 
oversight. We have much to oversee on policy, programs, and 
strategy, and that oversight will be limited without a full 
understanding of the fiscal year 2021 budget request.
    I look forward to hearing about the Department's activities 
to manage and counter the threat of a drastically morphing CWMD 
landscape.
    This year, we tasked GAO [Government Accountability Office] 
to review the preparedness of U.S. forces to counter North 
Korean chemical and biological weapons on the Korean Peninsula. 
GAO has already highlighted many unsettling issues.
    Most pressingly, we questioned whether U.S. Forces Korea 
planners have access to the relevant intelligence on North 
Korean chemical and biological weapon sites needed to 
effectively plan and, if necessary, conduct counter-WMD 
operations.
    I am deeply concerned that our preparedness for a 
significant state-level WMD event is wholly inadequate. We owe 
it to the men and women in uniform to ensure that they are 
trained and equipped to successfully operate and perform in a 
contaminated environment.
    In closing, there is much work to be done to strengthen 
CWMD policy, programs, and preparedness. This includes 
understanding the 2014 strategy in the context of today's 
threat landscape, the budget request alignment to the current 
strategy, and how the Department's strategy and end states are 
consistent with the national-level strategy and whole-of-
government effort.
    So I look forward to hearing from our witnesses and note 
that following this discussion we will move to a closed, 
classified session.
    So, with that, before we turn to the witnesses, I would now 
want to turn to Ranking Member Stefanik for any comments she 
may have.
    [The prepared statement of Mr. Langevin can be found in the 
Appendix on page 27.]

STATEMENT OF HON. ELISE M. STEFANIK, A REPRESENTATIVE FROM NEW 
YORK, RANKING MEMBER, SUBCOMMITTEE ON INTELLIGENCE AND EMERGING 
                    THREATS AND CAPABILITIES

    Ms. Stefanik. Thank you, Chairman Langevin.
    And thank you to our witnesses for being here today.
    The intent of this first subcommittee posture hearing of 
the new year is to review the Department's strategy, policy, 
and programs for countering weapons of mass destruction. As I 
have stated previously, while the DOD [Department of Defense] 
faces urgent challenges daily, we can never afford to lose 
sight of the critically important mission of countering weapons 
of mass destruction.
    This is especially true given recent events, as we respond 
and contain the global impacts of the coronavirus outbreak. 
This evolving threat should serve as a reminder for how 
important our involvement is in this arena, through activities 
like the Biological Threat Reduction Program; nuclear, 
chemical, and biological preparedness plans; crisis response 
exercises; and the development of sound policy that guides our 
collective response to these types of events.
    And, most importantly, it should serve as a reminder that 
events of this magnitude require a whole-of-government 
response, not limited to just the four DOD organizations 
represented here today, but inclusive of HHS [Department of 
Health and Human Services], the CDC [Centers for Disease 
Control and Prevention], DHS [Department of Homeland Security], 
State Department, and State and local officials. The 
relationships that you build with these agencies and the 
repetitions in times of peace will underpin the effectiveness 
of your partnerships in times of crisis.
    I appreciate the relentless efforts of the Defense Threat 
Reduction Agency; USSOCOM [United States Special Operations 
Command]; OSD [Office of the Secretary of Defense] Policy; 
Acquisition and Sustainment; and countless other organizations 
to prevent, prepare, and respond to CWMD events around the 
globe.
    While our collective conscience hopes that these weapons 
will never be used to wage war in the future, we need only look 
to the Syrian, North Korean, and Russian regimes for proof that 
this is not the reality of the world we live in. The pursuit, 
proliferation, and potential use of weapons of mass destruction 
remains a high-consequence threat that we must plan for.
    Finally, I am interested to hear from our witnesses today 
how recent efforts to streamline and provide additional 
leadership and accountability to this problem have matured.
    I am also interested in any lessons learned from the 
Department's response and contributions to the coronavirus 
efforts and how these insights are evolving our CWMD posture 
and our view of the criticality of the domestic industrial base 
and the Strategic National Stockpile.
    And while I know we are not going into specific fiscal year 
2021 budget numbers today, I ask each of the witnesses to 
highlight any specific interest items relevant to the 
discussion today that the committee should be focused on during 
our reviews of the President's budget request.
    Thank you to our witnesses, and I yield back to the 
chairman.
    Mr. Langevin. Thank you, Ranking Member Stefanik.
    And we will now hear from the witnesses and then move into 
a question-and-answer session after that.
    I thank all of you for the contributions you are making to 
our national security.
    And, with that, I would like to recognize Principal Deputy 
Assistant Secretary Whelan to begin.

  STATEMENT OF THERESA M. WHELAN, PRINCIPAL DEPUTY ASSISTANT 
SECRETARY OF DEFENSE FOR HOMELAND DEFENSE AND GLOBAL SECURITY, 
      OFFICE OF THE UNDER SECRETARY OF DEFENSE FOR POLICY

    Ms. Whelan. Good afternoon, Chairman Langevin and Ranking 
Member Stefanik and members of the subcommittee. I am honored 
to testify today regarding the Department of Defense's 
countering weapons of mass destruction efforts.
    The DOD CWMD enterprise's mission--to dissuade, deter, and, 
when necessary, defeat actors who threaten or use WMD against 
the United States or our interests, and to be prepared to 
respond to and mitigate the effects of WMD use--is, as you both 
mentioned, extensive and complex.
    Mission success requires the expertise and collaboration of 
many DOD components. OSD Policy develops CWMD policy, 
strategies, and implementation guidance to ensure the effective 
development of capabilities and activities. OSD Policy also 
leads related interagency and international engagements.
    The threats of WMD use and proliferation are rising. All of 
the National Defense Strategy's ``2+3'' actors--China, Russia, 
North Korea, Iran, and violent extremist organizations--have or 
are pursuing WMD capabilities that could threaten the United 
States or U.S. interests.
    Further, the WMD threat landscape is continuously changing. 
Rapid biotechnology advances are increasing the potential, 
variety, and ease of access to biological weapons. Converging 
enabling technologies, such as artificial intelligence, 
heighten concerns about these developments.
    OSD Policy works with DOD components and other departments 
and agencies to raise awareness and develop strategies to 
mitigate potential threats, while ensuring the United States is 
postured to realize the benefits offered by emerging 
technologies.
    Through proactive collaboration and coordination, the 
Department leverages the distributed nature of its CWMD 
expertise to address WMD threats across the mission spectrum, 
from preventing acquisition and proliferation, to containing 
and reducing threats, to responding to WMD-related incidents 
and contingencies.
    The DOD CWMD Unity of Effort Council is our collaborative 
and crosscutting venue for raising awareness of issues, 
identifying shortfalls and opportunities, and driving toward 
solutions. In 2019, the Council focused on four primary issues: 
two on the potential use of pharmaceutical-based agents as 
chemical weapons, one on joint force readiness for a Korea 
contingency, and one on enterprise-wide prioritization. The 
Council also continued working issues raised in 2018.
    I want to conclude by highlighting OSD Policy's work to 
advance the three NDS [National Defense Strategy] lines of 
effort in the CWMD context.
    The first is restoring readiness through lethality. One of 
our primary objectives is to ensure that our forces can operate 
and win in a CBRN [chemical, biological, radiological, and 
nuclear]-contaminated environment, which denies adversaries the 
benefits of using WMD.
    Even before its charter was signed, the CWMD Unity of 
Effort Council began working with INDOPACOM [United States 
Indo-Pacific Command] to review CWMD-related readiness 
requirements and ensure it is prepared to meet them. The 
Council actively monitors DOD progress towards meeting 
requirements and, where appropriate, is addressing identified 
shortfalls to ensure our forces are more agile and lethal.
    OSD Policy is also working to reform the Department for 
greater performance and accountability. To ensure the best 
return on investment, OSD Policy is leading an effort, through 
the CWMD Unity of Effort Council, to prioritize WMD threats and 
provide related policy guidance for the Department to organize 
DOD CWMD operations, activities, and investments around a 
cohesive threat picture.
    The CWMD Unity of Effort Council prioritization anticipates 
DOD components will align their prioritization efforts. For 
example, OSD Policy will incorporate the Council's WMD 
prioritization guidance into our cooperative threat reduction 
methodologies.
    Finally, a core tenet of many of our CWMD programs is 
strengthening alliances and building partnerships. Through work 
to reduce WMD threats, the Department's CTR [Cooperative Threat 
Reduction] program empowers partners to detect, prevent, and 
reduce WMD threats on their own. This reduces the burden on DOD 
resources, allows for greater interoperability, and reduces WMD 
threats worldwide.
    The DOD CWMD enterprise's agility and expertise will enable 
us to address the existing and emerging WMD threats of 2020 and 
beyond. Thank you for your continued support for our CWMD 
mission, and I look forward to answering your questions. Thank 
you.
    [The prepared statement of Ms. Whelan can be found in the 
Appendix on page 29.]
    Mr. Langevin. Thank you, Secretary Whelan.
    Secretary Shaffer is now recognized.

 STATEMENT OF HON. ALAN R. SHAFFER, DEPUTY UNDER SECRETARY OF 
 DEFENSE FOR ACQUISITION AND SUSTAINMENT AND ACTING ASSISTANT 
  SECRETARY OF DEFENSE FOR NUCLEAR, CHEMICAL, AND BIOLOGICAL 
DEFENSE PROGRAMS, OFFICE OF THE UNDER SECRETARY OF DEFENSE FOR 
                  ACQUISITION AND SUSTAINMENT

    Mr. Shaffer. Thank you, Chairman Langevin, Ranking Member 
Stefanik, and members of the subcommittee. I thank you for 
inviting us to testify on the Department of Defense's efforts 
to counter threats posed by weapons of mass destruction.
    I have prepared a written statement for the record, but, in 
the interest of time, I would like to highlight just a few key 
points for you now.
    While the Department-wide efforts for countering weapons of 
mass destruction have many key players, the Office of the 
Assistant Secretary for Nuclear, Chemical, and Biological 
Defense Programs, which I am charged to lead, is responsible 
for developing and fielding capabilities to deter and defend 
against the use of weapons of mass destruction and to provide 
the means to respond effectively should these weapons be used.
    In that effort, we work very closely with each of the 
panelists before you as well as other DOD, interagency, and 
international counterparts to provide U.S. forces these 
capabilities that they need.
    I think it is instructive to provide the priorities of my 
office. As I said, my office is the office responsible for 
developing and fielding capabilities for defense against 
chemical and biological weapons and for the safety, security, 
and modernization of the nuclear deterrent, in partnership with 
most offices in the Pentagon.
    Consistent with the National Defense Strategy, our highest 
priority is maintaining the viability and modernization of the 
nuclear triad as an effective deterrent. At nearly the same 
level, we aim to ensure that no soldier, sailor, airman, or 
marine is harmed by chemical or biological weapons and, 
specifically, to increase emphasis on the emerging chemical and 
biological warfare threats that we are seeing come into the 
field now.
    Our third major priority is to accelerate the destruction 
of existing stocks of old chemical weapons--the stockpile of 
our chemical weapons and to develop the capability to safely 
dispose of chemical weapons and biological weapons our forces 
might encounter in hostile environments.
    Finally, we need to continue to emphasize rebuilding an 
effective and diverse workforce to be able to handle the 
threats of the future.
    We are in an interesting time for countering weapons of 
mass destruction, as the convergence of a number of scientific 
disciplines, including artificial intelligence, synthetic 
biology, molecular engineering, and system-level autonomy, are 
opening the door for development of new challenges.
    Whether it is Russia or China upgrading their nuclear 
forces with new and advanced nuclear weapons or the use of 
novel chemical weapons in 2018 in the suburbs of Salisbury, 
England, threats from WMD continue to evolve, modernize, and 
expand. In many ways, we have thrown off the old norms.
    In particular, I am very concerned that, as the norms 
against the use of weapons of mass destruction continue to 
erode, those seeking to develop novel chemical weapons or push 
the boundaries of biology and genetic engineering for nefarious 
purposes continue to expand. I look forward to discussing these 
issues with the committee.
    In closing, I will continue to work with my interagency 
stakeholders, my partners around this table, and our 
international allies to provide the capabilities to deter, 
confront, and defeat the use of weapons of mass destruction. 
Our Nation and our forces deserve this.
    I appreciate the committee's continued support for these 
efforts, and I look forward to your questions.
    [The prepared statement of Mr. Shaffer can be found in the 
Appendix on page 40.]
    Mr. Langevin. Thank you, Secretary Shaffer.
    Admiral Szymanski, you are recognized.

STATEMENT OF VADM TIMOTHY G. SZYMANSKI, USN, DEPUTY COMMANDER, 
                U.S. SPECIAL OPERATIONS COMMAND

    Admiral Szymanski. Good afternoon, Chairman Langevin, 
Ranking Member Stefanik, and members of the subcommittee. I am 
honored to appear before you today on behalf of the U.S. 
Special Operations Command in its role as the Department's 
coordinating authority for countering weapons of mass 
destruction.
    Special operation forces have a longstanding operational 
role in countering the proliferation of weapons of mass 
destruction. As coordinating authority for countering weapons 
of mass destruction, SOCOM is also responsible for coordinating 
across the joint force to conduct campaign planning, assess 
execution of the campaign plan, and make recommendations to the 
Department leadership.
    In its coordinating authority role, SOCOM relies on the 
guidance and partnership of the distinguished Department 
leaders here at this table. Our work is nested tightly within 
national Department policy and strategy, as conveyed by the 
Office of the Assistant Secretary of Defense for Homeland 
Defense and Global Security, to ensure unity of effort with the 
rest of the Department and U.S. Government.
    We partner closely with the Office of the Assistant 
Secretary for Nuclear, Chemical, and Biological Defense 
Programs to support a robust nuclear, chemical, and biological 
defense posture for the joint force.
    And the Defense Threat Reduction Agency supports as a 
combat supporting agency, providing timely information-sharing, 
intelligence and planning coordination, and technological 
solutions for the joint and special operation forces.
    In the 10 months since I last updated you on SOCOM's work 
as the coordinating authority, world events have driven a 
number of changes in the landscape of nuclear, chemical, and 
biological threats, while other changes continue to evolve in 
ways that are harder to measure. Additionally, SOCOM remains 
focused on countering the global threat from violent extremist 
organizations, but the command and coordinating authority role 
have oriented to also address great power competition.
    What has not changed is the need for informed, coordinated 
action across the U.S. Government and a close relationship of 
trust with our partners and allies. As DOD coordinating 
authority, our goal is to position the Department to support 
just such coordinated action and nurture those key 
relationships to prevent the emergence of weapons of mass 
destruction capabilities, protect the United States and its 
citizens and our national interests from threat actors either 
developing new or advancing existing programs, and respond to 
and mitigate the effects of any use.
    I refer you to my written statement for additional 
information regarding our approach to this mission and look 
forward to your questions.
    In closing, I would like to thank the members of this 
subcommittee once more for their support of this important 
national security mission. It is a privilege to work together 
with Ms. Whelan, Mr. Shaffer, and Mr. Oxford every day to keep 
our country safe from nuclear, chemical, and biological 
threats. I look forward to our continued partnership with them, 
with Members of Congress, and with our interagency and 
international partners to ensure our safety now and into the 
future.
    Thank you.
    [The prepared statement of Admiral Szymanski can be found 
in the Appendix on page 53.]
    Mr. Langevin. Thank you, Admiral Szymanski.
    Director Oxford is now recognized.

 STATEMENT OF VAYL OXFORD, DIRECTOR, DEFENSE THREAT REDUCTION 
     AGENCY, OFFICE OF THE UNDER SECRETARY OF DEFENSE FOR 
                  ACQUISITION AND SUSTAINMENT

    Mr. Oxford. Chairman Langevin, Ranking Member Stefanik, 
distinguished members of the committee, thank you for your 
continued support to the Defense Threat Reduction Agency 
[DTRA].
    I am pleased to join my colleagues appearing before you 
today. They represent the key leaders in the Department to 
counter the threats associated with weapons of mass 
destruction.
    I also am proud to represent the men and women of the 
Defense Threat Reduction Agency, an agency that in the last 
year was designated as a mission assurance center of excellence 
for the Department based on our vulnerability assessments of 
defense critical infrastructure around the world.
    We advanced the development of advanced nuclear weapons 
effects to help STRATCOM [United States Strategic Command] 
based on NPR [Nuclear Posture Review] requirements. We 
participated in a New START [Strategic Arms Reduction] Treaty 
mission and the exhibition of Russia's newest strategic 
delivery system, the RS-18 variant 2 ICBM [intercontinental 
ballistic missile] Avangard, that is designed to deliver the 
hypersonic glide vehicle that is to be nuclear capable.
    We expanded the application of artificial intelligence and 
machine learning to a variety of our data analytics efforts, to 
include applications to build 3D models of underground 
facilities based on intelligence and geospatial data.
    Our Integrated Munitions Effects Assessment was designated 
as the enterprise solution for supporting the warfighter for 
combating weapons of mass destruction and hardened and deeply 
buried targets.
    Catapult, our mission-driven data analytics platform that 
integrates over 1,100 data sources, was approved as a program 
of record.
    Continued support with CENTCOM [United States Central 
Command] and SOCOM was necessary to counter Iranian nuclear 
ambitions and to continue to pursue the D-ISIS [Defeat ISIS] 
campaign and to confront the Taliban threat in Afghanistan.
    Since appearing before you last, the Agency has continued 
its pivot towards the goals of the National Defense Strategy 
and to confront the ever-complex and dynamic threat environment 
composed of state and non-state actors, along with their 
proxies and surrogates. This environment places increasing 
demands of working across DOD, the interagency, and with 
international partners.
    Further, the adversaries we have faced have spent decades 
developing globally connected networks, requiring us to adopt 
global partnerships and a global perspective to fully identify 
the threat networks associated with China, Russia, Iran, and 
the DPRK [Democratic People's Republic of Korea]. To address 
this global nature of the threat, we have amplified our 
partnership with USSOCOM to take on additional support for the 
geographical commanders responsible for dealing with these 
adversaries.
    Beginning in 2018, I directed a full bottom-up review of 
the Agency's programs and personnel to make sure that we were 
aligned and focused our efforts on strengthening the nuclear 
deterrent, tailoring our support to the conventional force, and 
evolving our counter-threat network capabilities from a unique 
focus on VEOs [violent extremist organizations] to a threat-
based focus on all the adversaries in the National Defense 
Strategy.
    In doing so, we recognized that we must confront and 
overcome several key challenges: scaling our network analysis 
approach from the D-ISIS, Taliban, and al-Qaida threats to a 
globally connected nation-state threat; recognizing that 
actions against nation-states to compete in the gray zone 
requires a different decision calculus than countering 
terrorist networks, thus necessitating even closer 
relationships with the combatant commanders, OSD, the Joint 
Staff, the interagency, and our international partners; and, 
most importantly, recognizing the need to more fully understand 
the intentions and motivations of near-peer competitors.
    I will close with two recent examples of long-term efforts 
paying off in significant ways.
    First, the CTR program's biosurveillance program work with 
Thailand enabled their officials to detect their country's 
first case of the novel coronavirus outbreak, thus helping them 
mitigate further spread of the disease.
    Second, the FDA [Food and Drug Administration] recently 
licensed the first and only Ebola virus disease vaccine, made 
possible by DTRA research and development. With hundreds of 
thousands of doses now administered across the U.S., the EU 
[European Union], and Africa, it is protecting healthcare 
workers, reducing the allure of Ebola as a threat agent, and 
better protecting the warfighter.
    Again, thank you for your support of the Agency, and I look 
forward to your questions.
    [The prepared statement of Mr. Oxford can be found in the 
Appendix on page 64.]
    Mr. Langevin. Thank you, Director Oxford.
    Members will now be recognized for 5 minutes. I will begin 
by recognizing myself for 5 minutes.
    Secretary Whelan, how is the Department thinking about 
biotechnology and synthetic biology and other nontraditional 
materials and capabilities that could be used to cause mass 
destruction?
    Ms. Whelan. Thanks, Congressman, for the question. 
Actually, this is a very important issue, and we are glad that 
you are raising it and raising the awareness. It is one of 
great concern to us that we have been looking at from a policy 
perspective, and I will let my colleagues also comment on what 
they are doing specifically in their areas of expertise.
    We have actually funded the National Academy of Sciences to 
do a study for us on the changing nature of biodefense threats 
and potential security vulnerabilities to give us some 
overarching perspectives on it.
    But we are very concerned about the linkage between new 
biotech capabilities and new computer-based AI, artificial 
intelligence, that can enable and lower barriers to access 
capabilities to use new biotechnology in nefarious ways.
    So this is something the Department is concerned about, and 
I will ask my colleagues if they would like to comment on what 
they are doing specifically to address the issues.
    Mr. Oxford. Mr. Chairman, if I could, when we look at the 
nefarious ways that synthetic bio could be used, it can be used 
to direct modifications to the human genome, allowing for new 
pathogens to be created. Known pathogens can be started from 
scratch without a lot of advance warning. They can engineer and 
produce novel pathogens that have never existed before. We can 
make pathogens more dangerous, more transmissible, more 
virulent in their makeup.
    Within the Agency, working with Mr. Shaffer's NCB [Nuclear, 
Chemical, and Biological Defense] office, we have undertaken 
several different initiatives to counter this threat.
    First of all, we are increasing our hazardous assessment of 
emerging threats based on large datasets to inform future 
capability development.
    We are developing new hazard prediction models with data 
produced from threat agent science.
    We are also developing detectors capable of detecting broad 
levels of emerging threats; similarly, developing diagnostics 
to rapidly provide the warfighters assessments of the threats 
they face.
    We are also developing medical countermeasures to start to 
address some of these novel agents that may appear on the 
battlefield in the future.
    Those are just a few of the examples of what the chem-bio 
development research program that we execute on behalf of Mr. 
Shaffer's office is attempting to satisfy.
    Mr. Langevin. Thank you, Director.
    Secretary Whelan, there has been increasing attention to 
disease surveillance and response globally, particularly as the 
coronavirus crisis accelerates. A global biological pandemic 
would arguably present the single biggest threat to the U.S. 
short of a nuclear war.
    Considering the ongoing response to the coronavirus, what 
are you learning about the gaps in the Department's ability to 
respond to large-scale biological events, whether manmade or 
naturally occurring?
    Ms. Whelan. Thank you, Congressman.
    So we have been--we are actually still in the middle, 
obviously, of supporting our colleagues, particularly at HHS 
and DHS and CDC, in responding to the coronavirus. And 
certainly, within DOD, our Health Affairs Office has issued 
some of its own guidance to the force for their health 
protection.
    We are still assessing how this could impact us more 
broadly. We have our office's NORTHCOM [United States Northern 
Command] and our defense planning offices have looked at 
planning for pandemics. We have faced this problem before with 
H1N1 [influenza A, swine flu] back about 10 years ago, and then 
we recently faced it looking at Ebola in West Africa. So we are 
constantly absorbing the lessons learned and using them to 
address our force protection.
    But let me turn to Mr. Shaffer for some of his comments.
    Mr. Langevin. Yes. I am particularly interested in the gaps 
in the Department's ability to respond.
    Mr. Shaffer. Sir, I think that, as Ms. Whelan said, we are 
still in the middle of analysis. I have the Defense Logistics 
Agency that comes underneath my portfolio. They are involved 
every day in a whole-of-government approach in a telecon and 
emergency response meeting.
    They are gathering up where we are with respect to ability 
to fulfill the supply chain. I do think we have to look at 
ability to mass-produce vaccines, develop and mass-produce 
vaccine in a very short order. We have to balance some of the 
FDA restrictions on rapidly deploying vaccines with the help 
that they will give.
    But I think it will take some time to deconstruct where we 
saw the specific gaps in the supply chain. My job is worrying 
about the supply chain and then in other parts of the policy 
response. We are committed to doing that. And I will come back 
with a supply chain answer after we have a chance to analyze 
it.
    Mr. Langevin. Okay, good. Thank you.
    Director Oxford, any comment?
    Mr. Oxford. So, Mr. Chairman, one thing I would bring to 
light is what we talked about when we talk about synthetic bio 
and couple that with the announcement that was made last night 
with the Chinese hacking Equifax. If you couple that with the 
other hacking they have done over time, of Anthem, Marriott, et 
cetera, OPM [United States Office of Personnel Management], the 
large database that is being created, in conjunction with what 
we do in outsourcing our genetic engineering to the Chinese 
because it is cheaper, you can imagine what the potential 
outcomes are.
    So we ought to be looking at this as not necessarily a 
dangerous road but we ought to be looking at it from what we 
can understand about transmissibility and those kinds of things 
in case there were a separate kind of outbreak.
    Mr. Langevin. Very good. Thank you, Director.
    Ms. Stefanik is now recognized.
    Ms. Stefanik. Thank you.
    Mr. Oxford, the Cooperative Threat Reduction Program has 
been a valuable tool that DOD uses to proactively reduce the 
threat posed by weapons of mass destruction through 
partnerships with foreign countries. And, in fact, I have had 
the opportunity to learn more about those as I have led 
congressional delegations.
    Last year, Congress increased the amount authorized and 
appropriated by $35 million. Can you explain the return on 
investment of the CTR program and also explain its importance 
nested under the National Defense Strategy?
    Mr. Oxford. Yes. Thank you for the question. And, again, 
when we receive adds like that, what we do is we sit down with 
Mr. Shaffer's office and Ms. Whelan's office and we go through 
a prioritization across the globe to make sure we are applying 
those in the most applicable way.
    Since I took office, I have made an emphasis of not only 
accounting for the National Defense Strategy priorities but 
also working more directly with the combatant commanders to 
make sure we are operating in the right locations within their 
geographical areas, as they understand the region better than 
we might in DC, just to make sure we are putting the right 
pressure points on the system.
    So I think what you have found over time, when you go to 
places like Jordan, when you see the Philippine coastal watch 
center, and what I mentioned about the work that we have done 
in Thailand that identified the coronavirus very quickly, there 
is value added throughout the world with these programs.
    Ms. Stefanik. Next question is for Mr. Shaffer. This is 
somewhat of a follow-up to the chairman's question.
    Obviously, in the midst of the coronavirus outbreak, 
concerns have been raised that the Strategic National Stockpile 
isn't sufficiently prepared to deal with emerging diseases. 
There are legitimate concerns about shortages of medicines, 
health supplies, surgical masks, and vulnerabilities in our 
supply chain when the manufacturing of these items has moved to 
China.
    So how is DOD building resilience into its stockpile of 
chemical and biological supplies? And what are we learning from 
this particular instance with the coronavirus experience?
    Mr. Shaffer. Congresswoman, that is a terrific question.
    As I tried to explain, we are still in the process of 
understanding where our gaps and shortfalls are. I think we all 
recognize that, not just in the chemical-biological agent area 
but in a large number of areas, we have outsourced our 
manufacture of critical equipment. You talk about chemical-
biological effects. I look at microelectronics, where we don't 
have nearly enough indigenous capacity. I think that is a 
nationwide problem.
    We are going to come back and take a look at what we have 
to do for chemical and biologic defense for our troops. And 
then, getting beyond that, we will work with CDC and other 
parts of government for a whole-of-government response.
    My concern really is for our troops that we deploy and 
making sure those troops and the families that are with them 
have the protection that they need, have the right antidotes, 
have the right protective gear. But it is something I think we 
all have to step back and take a look at, are we prepared for 
this type of event.
    Ms. Stefanik. And the reason I emphasize it, I know it is 
repetitive of the chairman's question, but it is really 
important to learn the lessons. And there are concerns on both 
sides of the aisle to make sure that we apply what we are 
learning today of the shortfalls and make sure that we address 
in the future.
    Admiral, SOCOM has now been the coordinating authority 
capacity for 2\1/2\ years. Can you explain how SOCOM views this 
responsibility and what specific actions the command has taken 
to better coordinate countering-WMD activities across the 
Department?
    Admiral Szymanski. Yes. Maybe I can start with the second 
half of the question first, on the coordination piece, because 
I think, since we briefed you last year, we have aligned with 
the NDS in concert with, you know, my great colleagues here at 
the table.
    But we have been able to take--if you recall, our 
functional campaign plan is based on a model of pathway defeat, 
in the opening statement from Secretary Whelan, from 
acquisition to use.
    We have been able to take key objectives and tasks and 
lines of efforts in that and build that into the global 
campaign plans of three other combatant commands. Two of those 
are still in draft, two of the threat actor nations that the 
other geographical combatant commanders have that global 
campaign response for across the lines of prepare, protect, and 
respond.
    So that is one. We have been able to actually integrate 
some of the concepts, the key tasks and objectives, into our 
globally integrated exercises that the Chairman is using, and 
we have been able to develop a common operating picture, with 
the great help of DTRA, on all of our DOD-wide operations, 
activities, and investments to see that in real time on the 
Joint Staff's common integrated--COP [Common Operational 
Picture].
    What was the first part of your question? I answered the 
second.
    Ms. Stefanik. You know, you are 2 years into being the 
coordinating authority. It was broad; how you view this 
responsibility, and then what specific action. So I think you 
covered it, and we can get more into detail in the closed 
session.
    I will yield back.
    Mr. Langevin. Thank you, Ms. Stefanik.
    Mr. Larsen is now recognized for 5 minutes.
    Mr. Larsen. Thank you.
    Mr. Shaffer, soon after coronavirus was discovered, the 
Chinese mapped the genome and blasted that out into the 
scientific community so that folks could start working on 
diagnostics and vaccine development. Now, the diagnostic kit 
was developed fairly quickly, but the vaccine is probably 4 
months away, 5 months away from test and probably a year away 
or maybe slightly less from being okayed.
    What role are you all playing here in the United States, 
maybe with the CDC or without, to kind of facilitate a solution 
on that? And then what is the broader lesson as well?
    Mr. Shaffer. Thank you, sir.
    So I think you hit it in your question. The role of the 
Department of Defense is to support HHS and CDC in developing a 
vaccine. We won't take lead in that. We will make our 
facilities available for test, but we are in a support role for 
the greater health emergency.
    I do think we have to take a look at lessons learned, at 
how long does it take to create a vaccine that can be used, and 
then how do we think about taking time out of that equation. 
And I think that is something we are all going to have to 
discuss over the next coming months.
    There are ways to cut some time out. It comes with risk. 
And it is like everything, it is going to be a risk-versus-
value assessment. But we need to look at taking time out, and 
we will support the CDC in every way possible.
    Mr. Larsen. Okay.
    So, Mr. Oxford, the downside of this is that the genome of 
the coronavirus was mapped pretty quickly and blasted out to 
the rest of the world, and you probably saw it and said, ``Oh, 
no, I have to do something in defense about this.'' As opposed 
to an offense, create a vaccine, you have to figure out what 
this might mean for defending against its use against anybody, 
including our folks.
    How have you all approached that at DTRA?
    Mr. Oxford. So, again, you know, our posture this time 
versus the Ebola outbreak is really to be in support of HHS. 
They have a lot of leadership there that didn't exist in 2014, 
so they have taken the reins on this.
    What we are looking at are things similar to what I 
mentioned before. If this were a different kind of virus that 
posed a lot more serious consequence, what should we be doing 
at that point in time?
    And Mr. Shaffer has hit on this as well, that, you know, 
one of the things, if you are in the offensive chemical 
business, you do, you develop countermeasures alongside of 
that. We don't have that luxury. So what we have to do is get 
out in front of it with the science, as I mentioned before, 
looking at what the potential emerging threats are and starting 
to look at broad-based medical countermeasures ahead of the 
threat.
    In the closed sessions, we can talk about some of the other 
research that we know are going on and what measures we are 
already taking, because we know they are happening.
    Mr. Larsen. Yeah.
    So coronavirus presumably is a natural bio threat, but 
synthetic drugs like fentanyl aren't. And so I think we can 
probably all relate, as Members of Congress, in our districts 
to the opioid crisis and the role that opioids play, including 
fentanyl.
    But that is as a domestic crisis. Are you looking at 
fentanyl as a bioweapon, a synthetic bioweapon? And what steps 
are you taking?
    Mr. Oxford. Absolutely. In fact, we have done this, again, 
in conjunction with the chem-bio defense program under Mr. 
Shaffer's guidance. Since we were last before you, we have 
actually done field trials with live agent. We have done it 
here in the U.S., as well as with the Brits in the U.K. [United 
Kingdom].
    I can tell you in the open session that the results of 
those tests say that fentanyl is about equal to VX [nerve 
agent, synthetic chemical compound] in terms of its lethality. 
Carfentanyl is a thousand times. So, if you reverse that, what 
that means is a lot less agent to cause the same kind of damage 
as VX.
    We also know that the materials, fentanyl and carfentanyl, 
will persist in the environment, soil and water, for weeks to 
months. So it is not something that just goes away, as chlorine 
will. So it poses other challenges for long-term operations.
    We can talk about force protection and some of the other 
features in the closed session.
    Mr. Larsen. Yeah.
    And then in your testimony and in our discussion in the 
last couple weeks, you talked about the transition more from 
threat-based to network-based, looking at threats to more 
networks. Can you discuss any of that in this open session?
    Mr. Oxford. We can talk a lot more in the closed session, 
but one of the things--I would go back to some of the other 
questions about getting out in front of these--these--the 
exporting of capability, for example, to China.
    We need to be looking at the supply-chain network both 
incoming and outcoming from this country. We need to identify 
what components others may be relying upon U.S. technologies 
that we want to identify up front, as well as what they may be 
exploiting within universities and those kinds of things.
    So there is a lot there that the network analysis will 
illuminate, as the ranking member mentioned. What this does is 
allow us to use the authorities of the interagency, like 
Commerce and Treasury, to act on information the Department of 
Defense can develop.
    Mr. Larsen. Thank you.
    Mr. Langevin. Thank you, Mr. Larsen.
    Mr. Conaway is now recognized for 5 minutes.
    Mr. Conaway. Thank you, Mr. Chairman.
    Panel, thank you all.
    Turning to something a little more mundane, but can we get 
an update on our Chemical Demilitarization Program? It has had 
a couple of Nunn-McCurdy breaches in the last 8 years. We have 
another billion in spending this year. Are we going to make the 
2023 deadline?
    And I guess I would ask Mr. Shaffer--you looked like you 
were about to answer that--can you give us a status on that 
overall program?
    Mr. Shaffer. Yes, sir, we will make the December 2023 
deadline, and we will actually beat it. We have a new program 
manager that we put in place of it.
    When we get upstairs, I will have a placemat to put in 
front of you.
    The destruction has gone up remarkably in Colorado at the 
Pueblo Arsenal. And we have started destruction in Bluegrass in 
Kentucky against the other major stockpile.
    We are also bringing on line three additional static 
detonation chambers. To a layperson, you can think of, we heat 
the thing to such a degree that it vaporizes the entire 
munition.
    Yeah, we are going to make it.
    Mr. Conaway. On our budget?
    Mr. Shaffer. Oh, absolutely. We will not be asking--well, 
it depends, sir. On our original budget estimate or what we 
have right now? We will make it on the budget estimate for 
right now. We will not go higher.
    Mr. Conaway. The other question was, the report that you 
just said you had, you were looking at accelerating--or ways to 
accelerate the destruction. And that is what you are talking 
about there, that you may get it in ahead of time?
    Mr. Shaffer. Yeah, bringing on--so we have done a number of 
things. We are bringing on additional static detonation 
chambers. We are working with the local State environmental 
agencies to increase our throughput. We are going to 24-hour 
operations in some cases.
    And the increase in the rate of destruction of the existing 
stockpile is remarkable. I think, as of a year ago, we were 
somewhere under 20 percent. I have Dr. Charles Ball behind me, 
who is responsible for this. Within the next couple of weeks, 
we will be over 50 percent destroyed at Pueblo.
    Mr. Conaway. All right. Good news.
    Thank you, Mr. Chairman. I yield back.
    Mr. Langevin. Thank you, Mr. Conaway.
    Ms. Houlahan is now recognized for 5 minutes.
    Ms. Houlahan. Thank you, Chairman.
    Mr. Shaffer, my first question is for you. It is my 
understanding that the GAO completed a report about 5 years ago 
that established that the Department had made progress at 
researching, developing, and making available medical 
countermeasures against biological threats but did not use its 
established process for annually updating its list of threat 
priorities.
    From there, it is my understanding, as well, that the 
Department concurred with the GAO's findings and identified 
steps to address their recommendations.
    Can you, in this environment, possibly share with us what 
the Department has done over the last few years to implement a 
process to ensure that the biological threats list is 
prioritized appropriately?
    Mr. Shaffer. So, ma'am, I hate to say this, but 5 years ago 
I was departing the Department, going for a great 3 years in 
Paris, and no one has talked to me about this GAO report. So 
let me take this one for the record and get a better answer 
back to you.
    Ms. Houlahan. Thank you. I would appreciate that one.
    Mr. Shaffer. Yes.
    [The information referred to can be found in the Appendix 
on page 89.]
    Ms. Houlahan. And my second question actually sort of 
relates to that as well. I am concerned that we don't give 
enough attention to biological and chemical weapons and spend a 
lot more time thinking about nuclear threats than we possibly 
should. And I am just trying to make sure that we have a 
really--what are we doing to make sure that we think about 
these issues and that we are addressing these in an adequate 
way?
    How are we making sure that we are having adequate 
investments in biological threats and that we are not spending 
our time in threats that are potentially antiquated in some 
ways?
    Mr. Shaffer. Yes, ma'am. I presume that is for me. So I 
will answer this in kind of a broad perspective.
    When I took over responsibility, I looked at where we were, 
what our investment priorities were. I had to hire a new Deputy 
Assistant Secretary of Defense for Chemical-Biological Defense 
Programs. My charge to her was, we have got to increase 
emphasis on nontraditional agents.
    Nontraditional agents include fourth-generation nerve 
agents, they include pharmaceutically based agents, and they 
include biological agents from either genetic modifications, 
synthetic biology, and that like.
    Her job is to increase our investment, shift our investment 
portfolio. I have run that up through the leadership.
    This will be crass, but one of my first tasks to her--I 
will clean it up--was by this April develop a scare-the-heck-
out-of-them briefing for senior leadership within the 
Department. We will be happy to bring it over to you. When we 
get into the classified environment, the things that we are 
seeing are among the most worrisome that I have seen. I came on 
Active Duty--I shouldn't tell you this--in 1976. I am concerned 
with where the threat space is going----
    Ms. Houlahan. So, sir----
    Mr. Shaffer [continuing]. And she has to get it right.
    Ms. Houlahan. So, sir, I am deeply concerned as well, and 
I, you know, did not come on Active Duty in 1976 but, rather, 
in 1989, but these are the things that keep me up at night. Do 
you feel as though the President's new proposed budget 
adequately, kind of, reflects these priorities and where the 
threat currently is vis-a-vis nuclear versus biological versus 
chemical?
    Mr. Shaffer. So I will tell you that the President's budget 
does have a fairly good investment for chemical-biological 
programs.
    Within that portfolio, I have tasked Dr. Vann [Deputy 
Assistant Secretary of Defense for Chemical and Biological 
Defense] to shift the emphasis. We can do some of that within 
the year of execution. I am actually really targeting fiscal 
year 2022 to come in with a significantly altered investment 
profile.
    We are where we are, but we are going to work it very hard 
to get the profile right.
    Ms. Houlahan. And do you think, proportionate to the 
nuclear threat, that the President's budget is a good 
representation, an accurate representation of our concern, the 
things that keep you and I up at night?
    Mr. Shaffer. So my answer will probably surprise you. Yes, 
it does, only because of what I am seeing also in the nuclear 
enterprise in China and Russia.
    We are seeing just really, really aggressive behavior in 
all three forms of weapons of mass destruction from those 
nations, from Iran, from North Korea. So I have a hard time 
parsing out any particular weapon that could kill literally 
hundreds of thousands of people. It could be chemical, it could 
be biological, it could be nuclear. All three are very, very 
challenging threats.
    Ms. Houlahan. And you would probably be surprised, as well, 
to hear that I am also concerned about all of those three 
threats, and I just want to make sure we get it right----
    Mr. Shaffer. Good. So do I.
    Ms. Houlahan [continuing]. Spend the right kind of 
resources.
    Thank you. I yield back.
    Mr. Langevin. Thank you, Ms. Houlahan.
    Mr. Scott is now recognized for 5 minutes.
    Mr. Scott. Thank you, Mr. Chairman.
    As we talk about countering these threats, it is obviously 
not just the U.S. but our partner nations that are helping us 
counter them.
    And, Mr. Oxford, you mentioned the Chinese hacking Equifax. 
There is public reporting that China has threatened Germany, 
Denmark, and France that if Huawei is discriminated against or 
not selected in the development of their networks that there 
will be retaliation, economic retaliation, from China towards 
companies from those countries.
    We have seen the U.K. move forward with Huawei network 
integration. That is obviously a concern for many of us on this 
committee and throughout the United States. And we expect that 
other nations--obviously, some have chosen not to and are being 
threatened. Some will choose to use the cheaper solution.
    My concern is with regard to intelligence-sharing and the 
potential exposure of sources if we share across with an ally 
that is using the Huawei network.
    So my question, Mr. Shaffer, I guess is for you. When we 
talk about acquisition efforts with the United Kingdom or with 
other partner nations who are using Huawei or other companies 
that we deem to be not safe for us to transmit sensitive 
information through, what issues do you see moving forward with 
these types of bilateral engagements with countries that are 
our friends and partners if they are using Huawei to design 
their networks?
    Mr. Shaffer. Sir, the use of Huawei by our closest allies 
and friends is a concern. There is an awful lot of activity 
going on at the diplomatic level. If we do not believe a nation 
can protect information, we will not share it with them. And I 
think anything else we say is probably best saved for the 
closed session.
    Mr. Scott. Okay.
    Mr. Shaffer. But you hit upon a very strong concern. It is 
a strong concern by Secretary Esper. It is a strong concern by 
both myself and my boss. And when you look at the convergence 
of digitization of data with artificial intelligence that Mr. 
Oxford just talked about, there is a substantive threat to the 
Nation. And I will just leave it at that.
    Mr. Scott. I will accept that. And I would just make one 
further statement. I mean, hacking is something that you expect 
from a rogue nation or from a terrorist organization. China is 
one of the largest nations in the world, one of the three most 
powerful nations in the world. The fact that they conduct 
themselves this way is of great concern to me and, I know, the 
committee as a whole. And I will leave it at that and wait 
until we go behind closed doors.
    And, Mr. Chairman, I would yield the remainder of my time.
    Mr. Langevin. Thank you, Mr. Scott.
    Mr. Bacon is now recognized for 5 minutes.
    Mr. Bacon. Thank you very much. I thought I wasn't next in 
line.
    First of all, I appreciate all of your expertise here 
today----
    Mr. Langevin. Mr. Bacon, I misspoke. I apologize.
    Mr. Bacon. Okay.
    Mr. Langevin. Mr. Gallagher is now recognized for 5 
minutes.
    Mr. Bacon. That is what I was thinking, too.
    Mr. Langevin. Yeah.
    Mr. Gallagher. I assumed that it is because Bacon is a 
general and I am just a captain, but----
    Mr. Langevin. My apologies.
    Mr. Gallagher. That is fine. That is fine.
    I don't know who to direct this to. Possibly to Mr. 
Shaffer.
    How much have recent advances in synthetic biology and our 
ability to, sort of, literally print organisms--right? We are 
not just talking about CRISPR [clustered regularly interspaced 
short palindromic repeats], rearranging the A, T, C's, and G's. 
We are sort of printing sequences of A, T, C's, and G's. There 
is sort of a commercial market for that.
    Give us a sense of how that has changed the threat picture 
and where we are relative to the Chinese in that space.
    Mr. Shaffer. So I will tell you, I have a very good staff. 
I am not the biological expert, but my understanding is that 
the U.S. still leads in these technologies, but there is an 
awful lot of information, intellectual property flow to China.
    We know the Chinese are very good. We know that they are 
using advanced techniques. I think it is something we have to 
monitor very closely.
    And the whole business of academic freedom and academic 
research, coupled with national security, is something we all 
have to think about in the information age. What is the risk-
payoff benefit between total openness of information and 
ability to do very exquisite data mining?
    And this is something I think we--as a technologist, I can 
explain where the opportunity is, where the threat is, but we 
are really opening up a really significant policy debate, sir.
    Mr. Gallagher. Yeah.
    I don't know if anyone on the panel has thoughts on--I 
mean, we are seeing the emergence of companies that are 
manufacturing and printing organisms right now, which is 
stunning.
    To what extent does DOD think about that as an area where 
we need to invest further? I would just open it up, if anybody 
does study these issues.
    Mr. Oxford. I think, similar to the question that Ms. 
Houlahan asked before, it depends--I mean, there is plenty of 
money in chem-bio research; it is a matter of focus. So I think 
it is a matter of, what is our purpose for getting into that 
field versus what the Chinese and others may be doing.
    So I think it is really a matter of focus and intent that 
we have to look at. We would be doing this for the right 
reasons; they may not. So I think it is really the focus that I 
would go to.
    Mr. Gallagher. Quickly, and this may be relegated to a 
classified session, but to what extent when we war-game 
scenarios on the Korean Peninsula are we including the 
assumption that the DPRK will initially use biological and 
chemical weapons?
    For example, the thousands of artillery pieces that are 
built into Kaesong Heights that can range Seoul will be armed 
with chemical and biological weapons. Is that a worst-case 
scenario we plan against? Do we plan against it at all?
    Ms. Whelan. Congressman, yes, absolutely. I mean, we have 
to be ready to operate in a CBRN-contaminated environment.
    And, in fact, our readiness to operate in such an 
environment, we believe, hopefully, is a bit of a deterrent to 
the use. If we can show that no matter what you throw at us, 
our forces are still going to be able to operate effectively, 
we think that might actually serve as a deterrent.
    But, yes, we do plan for that. More detail would have to 
wait until the closed session. But it is absolutely on our 
radar screen.
    Mr. Gallagher. And just one quick follow-up. And I do hope 
we can follow up in classified session. I mean, it is one thing 
to allow our troops to operate in such an environment, but when 
you are dealing with the second-largest metropolitan area in 
the world, I mean, there are limits to our ability to minimize 
civilian casualties in such a scenario, correct?
    Ms. Whelan. Yes, there are. That is right.
    Mr. Gallagher. Okay.
    Well, with that, in an effort to get to the classified 
session, I will yield the minute and 2 seconds I have left.
    Mr. Langevin. Okay. Thank you, Mr. Gallagher.
    Ms. Slotkin is now recognized for 5 minutes.
    Ms. Slotkin. I apologize. I am just coming in, so I am 
going to yield my time and just listen, because I don't want to 
take us off track.
    Mr. Langevin. All right. Thank you very much.
    Now Mr. Bacon is recognized.
    Mr. Bacon. Thank you. I appreciate that, Mr. Chairman.
    And I appreciate you coming in and sharing your expertise 
today, to our great panel.
    I have three questions. I am going to direct them, and try 
to keep the answers succinct, if you would.
    My first question is to Ms. Whelan and Mr. Shaffer. If a 
WMD attack or accident occurs, the United States may need to be 
able to treat massive numbers of casualties quickly. This will 
likely create a demand on emergency and medical services that 
would overwhelm local or regional available resources. And so, 
like, at UNMC, or University of Nebraska Medical Center, we 
have a great capacity to treat bio emergencies, and we are 
trying to expand upon that.
    So my question is, to Ms. Whelan and Mr. Shaffer, what are 
we doing to ensure that we have the capacity at the national 
level to effectively respond to a WMD-scale event, in terms of 
medical facilities, beds, and specialized training?
    Thank you.
    Ms. Whelan. Thanks, Congressman.
    So, on the DOD side, we actually have a CBRN Response 
Enterprise that we have put together over the last two decades. 
And we have about 18,000-plus, give or take, Active and Reserve 
forces who are trained to be able to support the local first 
responders and, obviously, FEMA [Federal Emergency Management 
Agency].
    We work through FEMA at the national level and would only 
be engaged, at least with our Federal and Reserve forces, 
through FEMA at the national level. At the State level, 
obviously, the National Guard can come into play under State 
authority.
    So we are prepared to support if there is a domestic event.
    Mr. Bacon. Mr. Shaffer, anything else to add?
    Mr. Shaffer. No.
    Mr. Bacon. Okay.
    My second question is to Admiral Szymanski and Mr. Oxford. 
At the University of Nebraska Omaha, we have the National 
Strategic Research Institute, which is a university-affiliated 
research center that is focused on technologies for detecting 
and countering nuclear, biological, and chemical weapons as 
well as disease outbreak.
    Can you speak to the importance of these kind of 
university-affiliated research centers in building our ability 
to detect and respond to WMD events?
    Mr. Oxford. Congressman, I think one of the things that 
would be interesting is we have used the center in Omaha to 
actually attract future talent. We fund some of the research 
out there.
    We have also used some of the staff expertise within the 
office to actually help us start to war-game some of the 
advanced threats. For example, we just ran a limited nuclear 
war game within the agency to find out what challenges we may 
have confronting, for example, Russian use of nuclear weapons. 
It was talent that was out at the facility that we actually 
used.
    Mr. Bacon. Uh-huh.
    Admiral Szymanski. I think, generically, to all those 
affiliated universities, SOCOM uses a number of universities 
for different aspects of SOCOM's enterprise and its portfolios. 
And just recently we conducted a conditions-based assessment or 
an overall assessment of our sensitive activities going 
forward. We can talk a little bit more about that. But we would 
not be able to get some of the analysis and the research done 
that is required otherwise without those affiliated 
universities.
    Mr. Bacon. Well, our University of Nebraska is very proud 
of what it does, and they want to continue supporting DOD.
    While Mr. Oxford is here, I would just like feedback on 
some questions on Open Skies. Can you give us an update on the 
Open Skies mission? You know, it has been a little bit under 
the microscope lately, and I am a big supporter, but I would 
like to get your update.
    Mr. Oxford. Sure. Thanks for the question.
    First of all, last fall, working with the Joint Staff-
Policy and the National Security Council, there was a 
determination made to actually increase the strategic value of 
every mission that we flew. So we have actually, without going 
into detail, we have started flying in places within and over 
Russia that we hadn't before. We just completed a mission in 
late January that--we had never flown in January before.
    So this is a matter of using the strategic nature of the 
treaty that may not have been used the way it should have for 
the last 20 years. We have another mission going on right now, 
so back-to-back missions. And if we fly all the missions 
currently planned this year, it will be the busiest Open Skies 
season ever.
    Mr. Bacon. Great to hear.
    What is the value of Open Skies to our allies? Because I 
think that that is an area that we are missing in our 
discussions.
    Mr. Oxford. So, you know, when we talk about leaving Open 
Skies, we have a lot of consultation with our treaty partners. 
And they have been universal in the need for this dialogue, 
this ability to do that, and the ability, again, to continue to 
put pressure on Russia.
    I was at EUCOM [United States European Command] last week. 
We were talking about EUCOM's European strategy for 2020. And 
it is clear NATO [North Atlantic Treaty Organization] was 
coming together, like it hasn't in many years, as a community, 
worried about Russian influence, and the ability to push back 
on Russia has become more of a NATO issue. So these kinds of 
capabilities, I think, they find very valuable.
    Mr. Bacon. Thank you.
    I yield.
    Mr. Langevin. Thank you, Mr. Bacon.
    I believe all members have had the opportunity to go 
around, one round of 5-minute questioning. So, with that, if 
there are no additional questions, we are going to recess now 
and move to the closed session.
    [Whereupon, at 3:41 p.m., the subcommittee proceeded in 
closed session.]



      
=======================================================================




                            A P P E N D I X

                           February 11, 2020

=======================================================================

      



      
=======================================================================


              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                           February 11, 2020

=======================================================================

      

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

      
   

      
=======================================================================


              WITNESS RESPONSES TO QUESTIONS ASKED DURING

                              THE HEARING

                           February 11, 2020

=======================================================================

      

             RESPONSE TO QUESTION SUBMITTED BY MS. HOULAHAN

    Mr. Shaffer. While the rapid advances in technology have made it 
increasingly less practical or effective to maintain a threat list, 
following the outcome of the GAO report 14-442SU, the Chemical and 
Biological Defense Program (CBDP) established mechanisms to improve 
stakeholder awareness of existing and emerging threats, similar to how 
the intelligence community has moved to Dynamic Threat Assessments to 
allow continuous review and updates to the threat environment. The CBDP 
incorporates a series of threat reviews and discussions into our 
planning process referred to as Threats, Risks, and Vulnerabilities 
(TRV) discussions. The TRV is a classified forum with the intelligence 
community, Services, the Joint Staff, and Combatant Commands to discuss 
both chemical and biological threats. This forum also considers our 
defensive capabilities to address those threats and is our primary 
mechanism for sharing threat priorities across the CBDP stakeholders. 
The CBDP Joint Strategic Portfolio Analysis Review process, led by the 
Army's Executive Agent Secretariat, and Medical Countermeasures (MCM) 
working groups subsequently hold follow-on discussions about the 
alignment of MCM research and development efforts with the threat 
information and the National Defense Strategy to ensure the CBDP 
medical portfolio addresses the highest priority threats while 
considering available MCM candidates and resources. These working 
groups meet throughout the year to address key programmatic changes, 
discuss program strategic guidance, address new information about 
changes to the threat environment, and evaluate Service vulnerabilities 
to inform priorities for resourcing and capability development. The 
CBDP is also developing an analytic methodology that will help inform 
these discussions by ``scoring'' existing and potential threat agents; 
an adversary's ability and intent to use the agents; and the ability of 
our defensive capabilities to mitigate the impacts of the threats. We 
anticipate having this capability available to inform our threat 
discussions in October 2020. We will document updated threat 
prioritizations in annual CBDP Planning Guidance. Additionally, the 
CWMD Unity of Effort (UOE) Council is working within the Department to 
develop a mechanism to ensure the department's priorities for CWMD, 
informed by threat, risk, and policy considerations, are clearly 
articulated across the Department. The CBDP efforts inform, and are 
informed by, the CWMD UOE work. In total, these efforts have improved 
the Department's ability to ensure that development of defensive 
capabilities against traditional and non-traditional threats are 
aligned and considered through holistic, threat-informed, and riskbased 
assessments.   [See page 16.]

                                  <all>
</pre></body></html>
